Report No. D-2010-034                 January 8, 2010




       Internal Controls Over the Army, General Fund
           Cash and Other Monetary Assets Held
                     in Southwest Asia
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ANSF                          Afghan National Security Forces
ARCENT                        Army Central Command
COMA                          Cash and Other Monetary Assets
CONUS                         Continental United States
CSTC-A                        Combined Security Transition Command–Afghanistan
DASA(FO)                      Deputy Assistant Secretary of the Army (Financial
                                Operations)
DDO                           Deputy Disbursing Officer
DDS                           Deployable Disbursing System
DFAS                          Defense Finance and Accounting Service
DO                            Disbursing Officer
DSSN                          Disbursing Station Symbol Number
FINCOM                        Finance Command
FMC                           Financial Management Center
FMCO                          Financial Management Company
FMR                           Financial Management Regulation
GSA                           General Services Administration
LDA                           Limited Depositary Account
MFO                           Multinational Force and Observers
OCONUS                        Outside the Continental United States
OUSD(C)/CFO                   Under Secretary of Defense Comptroller/Chief
                                Financial Officer
SOA                           Statement of Accountability
SRD-1                         Standard Finance System-Redesign Subsystem-1
STANFINS                      Army Standard Finance System
                               INSPECTOR GENERAL
                               DEPARTMENT OF DEFENSE
                                 400 ARMY NAVY DRIVE
                            ARLINGTON, VIRGINIA 22202-4704



                                                                          January 8,2010

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)fCHIEF
                 FINANCIAL OFFICER
               ASSISTANT SECRETARY OF THE ARMY (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE
                 INDIANAPOLIS

SUBJECT: Internal Controls Over Army General Fund Cash and Other Monetary
         Assets Held in Southwest Asia (Report No. D2010-034)

We are providing this report for your information and use. We performed this audit in
response to a request made by the Deputy Assistant Secretary of the Army (Financial
Operations). No written response to this report is required. Therefore, we are publishing
this report in fmal form.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 601-5868 (DSN 329-5868).




                                             to:tA~               a.
                                             Patricia A. Marsh, CPA
                                                                     /IJ (}v(lf~
                                             Assistant Inspector General
                                             Defense Business Operations
Report No. D-2010-034 (Project No. D2008-D000FP-0132.000)                        January 8, 2010

               Results in Brief: Internal Controls Over Army
               General Fund Cash and Other Monetary
               Assets Held in Southwest Asia
What We Did
                                                       •   Internal controls were not in place or
Our overall objective was to determine whether
                                                           operating effectively at Army disbursing
internal controls over the Army General Fund
                                                           offices in Iraq, Kuwait, and Saudi Arabia.
Cash and Other Monetary Assets (COMA) held
                                                           We identified the following internal control
in Southwest Asia were effectively designed and
                                                           deficiencies.
operating to adequately safeguard, account,
                                                           o Disbursing offices did not have security
document, and report COMA.
                                                               alarms in place and operating.
                                                           o DOs did not have comprehensive
What We Found                                                  security programs and did not ensure that
Statement of Accountability documents were                     semiannual security reviews were
generally accurate, and observed cash counts                   performed or performed properly.
agreed with cash balances reported on the                  o A DO did not prepare Daily SOAs each
Statement of Accountability. However, some                     business day, DOs did not prepare and
Army and Defense Finance and Accounting                        document analysis to support their
Service internal controls over COMA held in                    justification for cash-holding authority
Southwest Asia were not effective. For                         amounts, and DOs had deficient
example:                                                       quarterly cash verifications.

•   Internal controls were not in place or             •   Disbursing Station 5588 had an unreconciled
    operating effectively at deputy disbursing             U.S. Treasury Limited Depositary Account
    offices in Afghanistan and Egypt that report           difference of $2.9 million.
    to the disbursing officer for Disbursing
    Station 5570. We identified the following          •   During FY 2008, the Army used cash
    internal control deficiencies.                         instead of Government purchase cards to pay
    o The deputy disbursing offices did not                for trips in support of the Combined Security
        have adequate physical controls.                   Transition Command-Afghanistan.
    o The disbursing officer (DO) and the
        deputy disbursing officers (DDOs) did          Management Actions
        not have support for their cash-holding
                                                       The Deputy Assistant Secretary for the Army
        authority amounts, and DDOs were
                                                       (Financial Operations) and Under Secretary of
        improperly appointed.
                                                       Defense Comptroller/Chief Financial Officer
    o DDOs incorrectly prepared Daily
                                                       have taken significant actions to address issues
        Statements of Accountability (SOA),
                                                       we identified, therefore no recommendations
        inappropriately accepted checks,
                                                       were made. Please see the recommendations
        improperly stored checks, did not have
                                                       table on the back of this page and the
        comprehensive security programs and
                                                       Management Action sections of Findings A, B,
        records of semiannual security reviews,
                                                       C, and D for further information.
        and had deficient quarterly cash
        verifications.

                                                   i
Report No. D-2010-034 (Project No. D2008-D000FP-0132.000)               January 8, 2010



Recommendations Table

Management                           Recommendations Requiring   No Additional Comments
                                     Comment                     Required
Under Secretary of Defense           None                        None
Comptroller/Chief Financial
Officer
Deputy Assistant Secretary for the   None                        None
Army (Financial Operations)




                                                 ii
Table of Contents
Introduction                                                                     1

      Objectives                                                                 1
      Background                                                                 1
      Review of Internal Controls                                                2

Finding A. Internal Controls at Deputy Disbursing Offices in Afghanistan and
Egypt                                                                            4

      Management Actions                                                        15

Finding B. Internal Controls at Army Disbursing Stations in Iraq, Kuwait, and
Saudi Arabia                                                                    16

      Management Actions                                                        21

Finding C. Reconciling the Disbursing Station 5588 Limited Depositary
Account                                                                         22

      Management Actions                                                        25

Finding D. Cash Amounts Used for Afghani National Security
Forces                                                                          27

      Management Actions                                                        28

Appendices

      A.   Scope and Methodology                                                29
      B.   Prior Coverage                                                       31
      C.   Cash and Other Monetary Assets Background                            33
      D.   Army Deputy Disbursing Offices and Disbursing Offices Visited        34
      E.   Additional Disbursing Officer Responsibilities                       35
      F.   Internal Control Conditions in Afghanistan and Egypt                 36
      G.   OUSD(C)/CFO Determining Cash Holding Authority Memorandum            37
      H.   Army Disbursing Office Requirements Memorandum                       40
      I.   Physical Security for Disbursing Offices Memorandum                  42
      J.   Technical Oversight of Army Finance Operations Memorandum            43
      K.   Internal Control Conditions in Iraq, Kuwait, and Saudi Arabia        44
      L.    Invitational Travel-Related Expenses Memorandum                     45

Glossary                                                                        46
Introduction
Objectives
The objective of this audit was to determine whether internal controls for Army General
Fund Cash and Other Monetary Assets held in Southwest Asia were effectively designed
and operating adequately to safeguard, account, document, and report Cash and Other
Monetary Assets. We performed this audit in response to a request made by the Deputy
Assistant Secretary of the Army (Financial Operations). See Appendix A for a discussion
of the scope and methodology and Appendix B for prior coverage related to the
objectives. See the Glossary for definitions of frequently used terms.

Background
The Cash and Other Monetary Assets (COMA) account represented a material line item 1
on the September 30, 2008, DOD Agency-Wide Consolidated Balance Sheet. The
Federal Accounting Standards Advisory Board, Statement of Federal Financial
Accounting Standards No. 1, “Accounting for Selected Assets and Liabilities,” March 30,
1993, defines cash as: (a) coins, paper currency and readily negotiable instruments, such
as money orders, checks, and bank drafts on hand or in transit for deposit; (b) amounts on
demand deposit with banks or other financial institutions; and (c) foreign currencies. See
Appendix C for more information on COMA, how the Army obtains cash, reports cash to
the U.S. Treasury, and reports cash on the Army General Fund balance sheet.

DOD reported $2.8 billion of COMA on its DOD Agency-Wide Consolidated Balance
Sheet as of September 30, 2008. Army General Fund COMA represented $2.42 billion
(86.43 percent) of DOD Agency-Wide COMA. Army General Fund COMA included
$2.36 billion held outside the continental United States (OCONUS), of which
$0.61 billion was attributable to Southwest Asia. The remaining $.05 billion Army
General Fund COMA was held inside the continental United States (CONUS). 2

The Army does not centrally manage COMA. The U.S. Army Finance Command
(FINCOM), the U.S. Army Corps of Engineers, and Defense Finance and Accounting
Service (DFAS) Indianapolis all manage Army COMA. A disbursing officer (DO) is a
military member or civilian employee of a DOD Component who is designated to make
disbursements in accordance with laws and regulations governing the disbursement of
public money. A disbursing office is an activity, or the organizational unit of an activity,
whose principal function consists of the disbursement, collection, and reporting of public
funds. Army DOs provide funds to deputy disbursing officers (DDO) and paying agents
or may authorize DDOs to obtain funds. See Appendix D for the disbursing stations and
offices we visited.

1
  According to the American Institute of Certified Public Accountants, the auditor’s consideration of
materiality is a matter of professional judgment and is influenced by the auditor’s perception of the needs of
users of the financial statements. In addition, materiality judgments are made in light of surrounding
circumstances and involve both quantitative and qualitative considerations.
2
  The $2.36 billion and the $.05 billion do not add to $2.42 billion because of rounding.




                                                     1
Review of Internal Controls
DOD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006, requires DOD Components to establish a management control program
to review, assess, and report on the effectiveness of internal controls in DOD. The
management control program must identify and promptly correct ineffective internal
controls and establish internal controls, when warranted, for the following two distinct
processes: the Federal Managers Financial Integrity Act overall process and the Federal
Managers Financial Integrity Act financial reporting process.

Adequacy of Internal Controls. We identified internal control weaknesses at the Army
and DFAS disbursing operations as defined by DOD Instruction 5010.40. Specifically,
we identified internal control deficiencies at Army disbursing stations and DFAS deputy
disbursing offices that resulted in the following internal control weaknesses.

DFAS internal controls were not in place and operating effectively to ensure that deputy
disbursing offices in Afghanistan and Egypt:

       •   had adequate security alarms, fire alarms, or armed guards in place;
       •   had sufficient vaults and safes;
       •   had complete records;
       •   prepared and supported cash-holding amounts;
       •   properly appointed DDOs;
       •   properly prepared Statements of Accountability (SOA) ;
       •   only accepted checks made payable to the accepting organization;
       •   properly stored U.S. Treasury and Limited Depositary Account (LDA) checks;
       •   prepared comprehensive security programs;
       •   prepared semiannual security reviews; and
       •   properly prepared quarterly cash verifications.

We believe the corrective actions taken have resolved these deficiencies (see Finding A).

Army internal controls were not in place and operating effectively to ensure that
disbursing offices in Iraq, Kuwait, and Saudi Arabia:

   •   had adequate security alarms in place,
   •   prepared comprehensive security programs,
   •   prepared semiannual security reviews properly,
   •   properly prepared Daily SOAs,
   •   prepared and supported cash-holding amounts, and
   •   properly prepared quarterly cash verifications.

We believe the corrective actions taken have resolved these deficiencies (see Finding B).




                                            2
Army internal controls were not in place to ensure that Disbursing Station [Symbol
Number] (DSSN) 5588 identified, resolved, and reported reconciling differences in its
U.S. Treasury LDA. We believe the corrective actions taken will ensure that these
deficiencies are addressed (see Finding C).

Finally, internal control guidance provided by the Under Secretary of Defense
Comptroller/ Chief Financial Officer (OUSD(C)/CFO) on the payment of expenses
supporting the Combined Security Transition Command-Afghanistan mission of training
and mentoring the Afghan National Security Forces (ANSF) was not adequate. We
believe that the corrective action has resolved this action (see Finding D).

We will provide a copy of this report to the senior officials responsible for internal
controls in the Army and at DFAS Indianapolis.




                                             3
Finding A. Internal Controls at Deputy
Disbursing Offices in Afghanistan and Egypt
Cash counts we observed generally agreed with cash balances reported on the Statement
of Accountability. However, other internal controls were not in place and operating
effectively at deputy disbursing offices in Afghanistan and Egypt that report to the
disbursing officer for DSSN 5570. Specifically, we identified the following internal
control deficiencies.

•   Deputy disbursing offices did not have adequate physical controls such as security
    alarms, fire alarms, or armed guards; vaults and safes; or complete records.
•   Disbursing officers (DOs) and deputy disbursing officers (DDOs) did not have
    support for their cash-holding authority amounts, and DDOs were improperly
    appointed.
•   DDOs incorrectly prepared Daily Statements of Accountability (SOA),
    inappropriately accepted checks, improperly stored checks, did not have
    comprehensive security programs and records of semiannual security reviews,
    and had deficient quarterly cash verifications.

These conditions occurred because the U.S. Army Central Command-Kuwait (ARCENT)
base commanders in Afghanistan did not ensure that physical safeguards were in place
and operating effectively. Additionally, the DO and DDOs were not aware of DOD
Regulation 7000.14-R, “Financial Management Regulation” (DOD FMR), requirements,
and the DOD FMR was inadequate in some cases. In addition, financial record keeping
and reporting were manually performed at deputy disbursing offices, and the DO was
unable to provide adequate oversight to his DDOs. As a result, the Army increased its
risk of loss due to errors, theft, fraud, and injury. It also increased its risk of inadvertently
disclosing personally identifiable information. In addition, holding excess cash increased
the U.S. Treasury’s cost of borrowing money. 3

DSSN 5570 Operations
The DO for DSSN 5570, who is located at DFAS Indianapolis, is responsible for
significant business operations. This DO has greater responsibility than any other DO
that we observed in Southwest Asia. The DO supports more than 61 DDOs. In addition,
DSSN 5570 provides services to the Army, the U.S. Army Corps of Engineers,
Defense agencies, other DFAS sites, Defense Military Pay Offices, the DFAS
Indianapolis Transportation Payment Office, and other Federal agencies. In FY 2008,
this DO’s operations processed 33,586,696 disbursements totaling $82,277,963,858 and
172,757 collections totaling $11,910,883,903. (See Appendix E for more information on
the DSSN 5570 DO duties.)



3
 See Appendix F for a matrix of significant internal control deficiencies that existed at deputy disbursing
offices in Southwest Asia.



                                                     4
We visited DSSN 5570 disbursing offices at seven locations in Afghanistan and one
location in Egypt; this finding applies to those eight locations.

Afghanistan
Disbursing operations in Afghanistan began in 2001. In November 2001, the 126th
Finance Command at Fort Bragg, North Carolina, sent a disbursing agent and a very
small contingent of finance personnel to the Afghanistan theater to support the U.S.
military operations in Afghanistan. The disbursing agent was initially advanced
$2 million. As the mission grew, other finance units sent disbursing agents to
Afghanistan. The DO for DSSN 5570 funded all of these disbursing agents. In 2003, the
10th Soldier Support Battalion at Fort Drum, New York, deployed to Afghanistan to take
command and control over all finance functions. However, the DO for DSSN 5570
continued to provide all funding and disbursing manual functions.

Sinai-Egypt
The Multinational Force and Observers (MFO) Sinai was created under the Camp David
Accords in August 3, 1981. Starting in 1984, Fort Bragg, North Carolina, started
supporting the finance mission with a deployed disbursing agent. The disbursing
functions were consolidated into DSSN 5570 during the mid-1990s. Specifically, the
Sinai disbursing agent became a DDO under DSSN 5570 and performed all finance
functions manually.

Cash Counts
Cash counts we observed generally agreed with cash balances reported on the Daily SOA.
For example, one location had a total balance of $13,420,013, which agreed with the
Daily SOA. At another location, the total balance of $6,496,582 had a minor discrepancy
of $1.56 with the Daily SOA.

Security Alarms, Fire Alarms, and Armed Guards
Deputy disbursing offices at seven of the eight locations did not have any type of security
alarm system; the eighth deputy disbursing office had not activated its already-installed
alarm system because no agreement was in place to prescribe how security forces would
respond if an alarm was received.

None of the eight deputy disbursing offices had operational fire alarms or sprinkler
systems to protect their COMA and other disbursing operation resources. Seven deputy
disbursing offices were in locations with only limited fire protection resources that were
not nearby. The other location had fire protection resources at approximately 1,000 feet
from the site.

None of the eight deputy disbursing offices had armed guards. At one location, security
force personnel were not U.S. military members or contractors and therefore, were,
prohibited from entering the deputy disbursing office.



                                            5
DOD FMR, volume 5, chapter 3, “Keeping and Safeguarding Public Funds” (dated
October 2006), states, “The DO and all other accountable individuals are responsible for
properly safeguarding all Government funds entrusted to him or her and is held pecuniary
liable for the loss of such funds.” Chapter 3 also states, “…an Intrusion Detection
System…is a vital part of any protection system, designed to provide in-depth protection
for a resource or other important area.” Chapter 3 adds that the commander is responsible
for providing fire protection of Government facilities and funds.

The deputy disbursing offices did not have sufficient security alarms, fire alarms, and
armed guards because ARCENT base commanders in Afghanistan did not ensure that
physical safeguards were in place and operating effectively. The DSSN 5570 DO in
Indianapolis was unable to provide adequate oversight of his DDOs in Southwest Asia
because of travel complications to Afghanistan; therefore, he could not have firsthand
knowledge of the security measures taken at his deputy disbursing offices. Instead, he
relied on the Army to put security measures in place. The DO also did not perform any
followup activities to ensure that the deputy disbursing offices had adequate protection.
Consequently, the risk of loss of funds due to fire and theft and the risk of physical injury
to disbursing office staff were increased.

Army FINCOM has made progress towards correcting these issues. DASA(FO) has
requested that ARCENT work with appropriate sustainment brigades and financial
management Army companies to ensure that appropriate physical security is provided for
each deputy disbursing office. Army FINCOM also established DSSN 8830 at Bagram
Air Field (Bagram), Afghanistan. Because the Bagram DO is stationed in Afghanistan,
this DO will be able to travel to all the respective deputy disbursing offices for
semiannual inspections with the DDOs to ensure that facilities have security and fire
alarms and that security forces and fire department personnel are able to respond to the
alarms. See the Management Action section of this finding for additional information.

Vaults and Safes
Deputy disbursing offices did not have adequate vaults at all eight locations. None of the
vaults were fireproof or marked as fireproof. Vaults were made using various
construction methods. For example, one vault was a room in the basement of a
residential house that had been converted to offices. We observed that the vault room
walls appeared to be constructed of cement, but the vault room door was wrought iron
and had only a keyed lock to secure it. This vault contained blank check stock placed on
top of safes. At two sites, woven wire was used to create vaults, and these vaults were
inside wooden structures. DDOs used large, keyed padlocks to secure vault doors.

Deputy disbursing offices did not have adequate safes at all eight locations. None of the
safes were General Services Administration (GSA)-approved. As we observed, some of
the safes were not manufactured in the United States, so they are not GSA rated. We also
found disabled locks on safes at two locations. At one, someone had drilled out the
combination lock and taped over the hole (see Figure 1). Disabling the locks made these
safes useless. At one location, a safe did not appear to be locked regularly as we had



                                             6
observed the DDO enter the vault and open the safe without using a key or combination.
Further, the lock mechanisms and keys at the eight disbursing offices were unique to
Southwest Asia. Not only were many of these not acceptable, but also the lock
combinations could not be changed because acceptable locksmiths for DOD purposes
were not available in Southwest Asia.

                 Figure 1. Example of a disabled safe combination lock




DOD FMR volume 5, chapter 3, states, “When possible, a disbursing office shall have a
built-in, fire-resistant vault with at least a three-position, dial-type combination lock. The
door and the vault shall be fire-resistant for a minimum period of two hours. All safes
containing funds shall be stored in the vault….” Chapter 3 also states that newly
constructed vaults, doors, and intrusion devices must be built or installed following the
requirements of the DOD Physical Security Equipment Guide, December 2000.

According to DOD FMR, volume 5, chapter 3, the commander is responsible for ensuring
that every individual entrusted with public funds is supplied a vault, safe, or other
adequate secure facility (for example, a strong box) for exclusive use that is accessible
only to that individual. If it is not possible to provide separate safes, alternatives such as
separate locked compartments in one safe, or strong boxes stored in one safe or vault,
must be made available. In addition, chapter 3 states that when vaults are not available,
combination, three-tumbler-lock, tool-resistant safes appearing on GSA or Federal Supply
Schedules must be used by DOs and DDOs to store public funds. If such a safe is not
available, a field safe that is secured properly to an immovable object must be used.
Chapter 3 requires that safes be GSA-rated and approved. A GSA-approved safe includes
a fire rating and resistance to burglary tools, as well as the minimum requirements for a
locking mechanism.

DOD FMR, volume 5, chapter 3, states:

       The DO and all other accountable individuals are responsible for properly safeguarding
       all Government funds entrusted to him or her and is held pecuniary liable for the loss of
       such funds. When DOs, deputies, agents, cashiers, custodians or alternates have custody
       of Government funds, each shall be assigned a separate secure container. Although all
       appointed or assigned personnel are liable for any losses of Government funds in their
       custody, the DO also continues to hold overall responsibility and is jointly (or severally)
       liable for any losses associated with these personnel. For this reason, DOs shall make



                                                    7
       sure that all deputies, agents, cashiers, imprest fund cashiers, and other custodians of
       public funds are fully aware of their responsibilities for properly handling and protecting
       Government funds. At least semiannually, the DO or designee shall make a personal
       inspection (and maintain a record of such inspections) of office security measures.

The DOD FMR states that the military commander is responsible for ensuring that every
individual entrusted with public funds is supplied a vault, safe or other secure facility.
However, the DO and all other accountable individuals are responsible for properly
safeguarding all Government funds entrusted to them. Additionally, the DO or designee
must personally perform a semiannual inspection and maintain inspection records.

Disbursing offices operated with inadequate vaults and safes because ARCENT base
commanders in Afghanistan did not ensure that physical safeguards were in place and
operating effectively. In addition, the DO was unable to provide adequate oversight of
his DDOs in Southwest Asia. The DO stated that he had not made any site visits to his
disbursing offices in Southwest Asia; therefore, he would not have knowledge of the
defective vaults and safes the DDOs used. Without the DO’s oversight, the risk of theft
increased.

Army FINCOM has made progress towards correcting these issues. DASA(FO) has
requested that ARCENT take immediate action to obtain GSA-compliant vaults or safes.
Additionally, the DO who assumed responsibility for DSSN 8830 in November 2008
at Bagram will be better able to travel to all of the respective DDOs for semiannual
inspections to ensure that GSA-compliant vaults or safes are in place and used
effectively. See the Management Actions section of this finding for additional
information.

Record Retention at Deputy Disbursing Offices
Deputy disbursing offices did not have complete records at all eight locations. The
previous DDOs at all the locations did not retain prepared records at the disbursing
offices where the transactions originated. For example, DDOs took the office copies
of transaction documents and reports, such as invoices, payment documents, and cash
verification reports, to their home station or next duty assignment. The DDOs maintained
these documents because of the potential liability issues and potential loss-of-funds
claims if payments made were later found to be in error.

According to DOD FMR, volume 5, chapter 21, “Disbursing Office Records” (dated
September 2007), original disbursing office records and related documents must be
retained as Government property and must be readily accessible to the DO or the
designated settlement office for 6 years and 3 months, consistent with guidance in the
National Archives and Records Administration General Records Schedule 6.

The DSSN 5570 DO stated that he received supporting “paper” documents for the Daily
SOAs from each of the DDOs in Southwest Asia. The DO stated that the DDOs did not
have document-imaging equipment at the time of the audit but the documents were
scanned once they arrived at DFAS Indianapolis. The DO stated that his disbursing



                                                    8
office did not have a document-scanning policy in effect, but that his office was
developing one. In addition, the DO had not issued a document-retention policy or other
policies and procedures applicable to sensitive data, such as protection of social security
numbers or contractor proprietary information, to the DDOs in Southwest Asia. He told
us that the DDOs now retain copies of the documents for all their transactions.

The DDOs did not have complete records on site because disbursing office personnel
manually performed financial recordkeeping and reporting. In addition, outgoing DDOs
took transaction documents and reports with them after their tours of duty in Southwest
Asia. These DDOs risk inadvertently disclosing sensitive information, and “For Official
Use Only” data is not controlled. Therefore, DOD has no assurance that such data are
protected.

Army FINCOM has made progress towards correcting these issues. Specifically, all
disbursing operations in Afghanistan now use the Deployable Disbursing System (DDS).
This system electronically creates and stores documents. DASA(FO) issued a
memorandum reminding DOs that all originals and copies of documents must be retained
and protected. See the Management Actions section of this finding for additional
information and DDS plans for Egypt.

Cash-Holding Authority
The DO and the DDOs at all eight locations did not completely support their justification
for cash-holding authority amounts. DDOs told us they did not prepare any support to
justify the level of cash held in their accounts, an amount they used to request the
cash-holding authority amounts. Our analysis of cash held by the DDOs showed that they
held between 3 days to 647 days worth in cash on that one day. The DO stated that
instead of DDOs preparing cash-holding authority amount justifications, DSSN 5570
performs an informal trend analysis of the DDOs’ cash usage without documentation to
support the analysis.

DOD FMR, volume 5, chapter 3, states that the DFAS Director or a designee is the
approving authority for requests to hold cash at personal risk by DFAS DOs. DFAS
DDOs, agents, and cashiers who are located at remote sites are authorized to hold cash at
personal risk when approved by the activity commander. Chapter 3 states that requests to
hold cash at personal risk must be made in writing and include the following: name, title,
and duty station of the accountable requestor; description of the payments and
transactions requiring the use of cash; a statement that adequate facilities are available to
safeguard the cash; and a breakdown of where the cash is held, by accountable position.
The request must include the amount to be held personally by the DO, as well as the
amounts to be held by all deputies, agents, cashiers of the DO, and other custodians of
public funds. Additionally, chapter 3 states, “In considering cash requirements for
disbursing and accommodation transactions, DOs shall consider daily cash collections of
all deputies, agents, cashiers of the DO, and other custodians of public funds over a
representative period of time and average the results.”




                                             9
The DO and DDOs should have provided an accurate daily cash level in their requests for
the authority. However, DDOs did not support cash-holding authority amount because
the DOD FMR lacked specific guidance or procedures for DOs or DDOs on how to
calculate and support their those amounts. As a result, DDOs are holding excessive
amounts of cash on hand, which increases the risk of errors, theft, or fraud and increases
the U.S. Treasury’s borrowing costs.

In response to this audit, the USD(C)/CFO and the Deputy Assistant Secretary of the
Army Financial Operations (DASA[FO]) jointly prepared guidance and incorporated it
into the DOD FMR to address calculating cash levels for requesting cash-holding
authority amounts. See the Management Actions section of this finding for additional
information.

Appointment of Deputy Disbursing Officers
DDOs were improperly appointed at all eight locations. Our internal control test was
designed to determine whether required documents were prepared in the proper sequence.
Specifically, we wanted to determine whether the nomination, appointment, and DDO
acceptance letters were prepared in that order. We determined that three DDOs were
unable to provide documentation supporting their appointments. DDO nominations and
acceptances at five of eight locations were not performed in the proper sequence.
Specifically, two DDOs accepted accountability for COMA before they were nominated,
and five DDOs accepted responsibility for COMA before they were appointed.

DOD FMR, volume 5, chapter 2, “Disbursing Offices, Officers, and Agents” (dated
December 2007), requires the DO to nominate and appoint DDOs by issuing a formal
letter of appointment. The appointment letter must state the specific duties the DDO is
authorized to perform and include the statement, “I acknowledge that I am strictly liable
to the U.S. for all public funds under my control.” The letter must include a statement
that confirms the appointee has been counseled with regard to pecuniary liability and has
been given written operating instructions. The DO should receive a formal acceptance
letter from the appointed DDO before the individual assumes any DDO responsibilities.
In the acceptance letter, the DDO should include the appropriate verbiage acknowledging
liability.

DDOs were improperly appointed because DOs and DDOs did not always follow DOD
FMR and DFAS Indianapolis Disbursing Operations Divisions Procedures Manual
requirements. As a result, the risk of errors, theft, and fraud was increased.

Management has acted to correct this issue. The new DO at Bagram will now be present
to properly appoint and supervise DDOs in Afghanistan. See the Management Actions
section of this finding for additional information and actions taken in Egypt.




                                            10
Preparation of Statements of Accountability
DDOs incorrectly prepared Daily SOAs and submitted them to the DO at seven of the
eight locations. Specifically, the seven locations had one or more of the following
problems in preparing the SOAs:

   •   Month-to-Date Amounts. DDOs at seven locations submitted Daily SOAs that
       reported incorrect figures for the month-to-date amounts. The original
       formulas in the electronically generated spreadsheets had been incorrectly
       modified for calculating the month-to-date values. At some of these disbursing
       offices, the amounts reported for daily transaction reporting were the same as
       the month-to-date amounts. The month-to-date totals, then, were erroneously
       reported.

   •   Support. At some locations, other cell formulas on the spreadsheet, for amounts
       that provided support in the Daily SOAs, had also been modified or corrupted. As
       a result, some amounts were reported on the wrong lines of the Daily SOA.
       Although the total accountability reported was accurate, the individual lines were
       not always accurately reported.

Reporting Foreign Currency Gains and Losses. The two DDOs that received cash and
paid vouchers in Afghani currency disclosed exchange gains and losses on SF 1081,
“Voucher and Schedule of Withdrawal and Credits,” but should not have done so. They
should have reported these exchange gains and losses only on the SOA. In addition, one
DDO incorrectly reported sales of aircraft fuel on the foreign currency gains line of his
DD Form 2665, “Daily Agent Accountability Summary.” Manually entering the
information on the forms contributed to these errors,

DOD FMR, volume 5, chapter 19, “Disbursing Officer Accountability Reports” (dated
April 2008), states that currency gains must be reported on line 6 and currency losses
must be reported on line 11 of DD Form 2665. DDOs did not have accurate data and
incorrectly prepared SOAs because disbursing office personnel had to use manual
methods to prepare DD Form 2665 and supporting documents. As a result, the risk of
loss due to errors, theft, and fraud was increased.

Army FINCOM reported to us that it installed DDS in Southwest Asia so accounting
records and reports are automated and can interface with other Army accounting systems.
Additionally, DDS will automate reports and supporting schedules so that errors caused
by corrupted spreadsheet cells and manual calculation of gains and losses do not occur.
Furthermore, DASA(FO) has requested that the U.S. Army Audit Agency perform an
audit of the Foreign Currency Gain and Loss account. The U.S. Army Audit Agency
announced the audit on July 6, 2009. See the Management Actions section of this finding
for additional information.




                                           11
Accepted Checks Payable to U.S. Treasury
DDOs at seven of the eight deputy disbursing offices incorrectly accepted checks for
deposit made payable to the U.S. Treasury. The DDOs should have requested checks
made payable to the disbursing office or deputy disbursing office at seven of eight
locations. DOD FMR, volume 5, chapter 10, “Collections” (dated February 2005), states
that “DOs, deputies, agents, and cashiers shall require remitters to make checks and other
negotiable instruments payable to the accepting organization, rather than to the
Department of the Treasury.”

DDOs accepted checks made out to the incorrect payee because they did not know that
the DOD FMR required the payee to be the accepting organization, rather than the U.S.
Treasury. In addition, the DO stated that he was not aware that the DOD FMR required
personal checks be made payable to the accepting disbursing office instead of the U.S.
Treasury. As a result, the risk of loss due to errors, theft, and fraud was increased.

The DASA(FO) has issued a memorandum reminding DOs to follow the guidelines in
DOD FMR, volume 5, chapter 10, for accepting personal checks. See the Management
Actions section of this finding for additional information.

Storage of U.S. Treasury and Limited Depositary
Accounts Blank Check Stock
DDOs improperly stored U.S. Treasury or LDA checks at three of eight locations. The
deputy disbursing offices stored their blank check stock outside of the safe but within the
vault. However, none of the vaults used by the DDOs met the required minimum
standards. DOD FMR, volume 5, chapter 3, states that all cash, blank U.S. Treasury
checks, blank depositary checks [LDAs], and related items must be kept in a vault, safe,
or security container that meets minimum security standards prescribed in this section.

DDOs stored U.S. Treasury and LDA checks improperly in unsecure areas because they
were not aware of the requirements for safeguarding U.S. Treasury and LDA checks. As
a result, the risk of loss due to theft or fraud was increased.

DASA(FO) issued a memorandum reminding DOs to follow the guidelines in DOD
FMR, volume 5, chapter 3, for storing U.S. Treasury or LDA blank check stock. See the
Management Actions section of this finding for additional information.

Comprehensive Security Program
DDOs at seven of eight locations did not have a comprehensive security program. DOD
FMR, volume 5, chapter 3, states that a security program must be developed and
promulgated in the form of a command instruction or notice. The program must provide
adequate protection for the maximum amount of public funds and related documents and
instruments on hand at any given time. In addition, volume 5, chapter 3, requires
commanders to include personnel protection in the overall disbursing security program.



                                            12
DO responsibilities include conducting and documenting semiannual inspections of the
security measures that are in use by their DDOs. The DO stated that he did not request
copies of security programs from his DDOs in Southwest Asia. Security programs were
inadequate because the DDOs were not aware of the requirements for comprehensive
security programs. As a result, the risk of loss due to theft and the risk of injury were
increased.

DASA(FO) issued a memorandum reminding DOs to follow the guidelines in DOD
FMR, volume 5, chapter 3, regarding the requirement for a comprehensive security
program. See the Management Actions section of this finding for additional information.

Semiannual Security Reviews
DDOs did not have a record of semiannual security reviews at all eight locations.
Without a record of reviews, the DO and DDOs could not confirm they had ever
conducted the semiannual security reviews. DOD FMR, volume 5, chapter 3, requires
each disbursing location to conduct a semiannual review of its security measures. The
security program must include requirements for “periodic review of the adequacy of the
security measures being used and for testing security equipment for proper operation on a
semiannual basis.”

The DDOs were not aware of the requirements for reporting semiannual security reviews
and they did not conduct semiannual security reviews. The DO stated that he did not
request copies of semiannual security reviews from his DDOs in Southwest Asia.
Without semiannual security reviews and proof of the reviews, the risk of loss due to theft
was increased. DASA(FO) issued a memorandum reminding DOs to follow the
guidelines in DOD FMR, volume 5, chapter 3, regarding the need to have semiannual
security reviews. See the Management Actions section of this finding for additional
information.

Quarterly Cash Verifications
Quarterly cash verifications were incomplete at all eight locations. We requested
quarterly cash verifications for the last four quarters for the eight locations we visited
(32 reports). The DO could not provide 15 of the 32 reports we requested. One location
did not perform any of the required quarterly cash verifications. All the locations had one
or more of the following deficiencies: seven locations failed to indicate when the last cash
verification was conducted; four locations’ reports did not include supporting
documentation, such as team member appointments; and one DDO performed his own
quarterly cash verifications for three quarters.

DOD FMR, volume 5, chapter 3, states:

       Verification of the DO’s cash and other assets shall be conducted by a team of
       disinterested persons appointed by the commander…. Cash verification team members
       shall not be in the DO’s chain of command. If possible, at least one member shall be
       equal or senior in rank to the accountable individual…. In all cases, the appointing




                                               13
       commander shall require the cash verification team (or individual) to perform a
       verification of all funds held by deputies, branch office cashiers, disbursing agents, paying
       agents, collection agents, imprest fund cashiers, or change fund custodians, at least once
       each quarter.

FMR, volume 5, appendix A, “Cash Verifications” (dated October 2003), states that the
cash verification team must report all findings in writing to the appointing official
immediately upon completion of verification of both official funds and safekeeping
deposits. Specifically, a copy of the quarterly cash verification report goes to the DO,
another copy goes to the DFAS site that supports the DO, and a copy stays at the deputy
disbursing office.

DOD FMR, volume 5, appendix A, provides instructions and checklists for performing
cash verifications. It requires the DO to balance the DD Form 2657 and validate amounts
reported for items due to the U.S. Government that are included in the balance.
DOD FMR, volume 5, appendix A, lists extensive procedures to account for cash; to
reconcile bank statements and balances of foreign currency held in limited depositary
checking accounts; and to review vouchers supporting gains and losses on foreign
currency transactions.

DDOs verifications were incomplete because they were not fully aware of the
requirements for quarterly cash verifications. As a result, of the lack of quarterly cash
verifications, the risk of loss due to errors, theft, or fraud was increased. DASA(FO)
issued a memorandum reminding DOs to follow the guidelines in DOD FMR, volume 5,
appendix A, for performing and documenting cash verifications. See the Management
Actions section of this finding for additional information.

Other Matters of Interest - Oversight of Multinational
Force Observers Sinai DDO
The Multinational Force Observers (MFO) Sinai DDO was created on August 3, 1981,
under the Camp David accords, and consolidated into DSSN 5570 in the mid-1990s.
Because of its unique mission and remote location, the Army Financial Management
Center (FMC) has not provided technical oversight of its operations. We observed
numerous problems that resulted from this, such as lack of separation of duties, excessive
cash on hand, assorted security issues, and manual transaction processing and report
preparation. DASA(FO) issued a memorandum, “Army Disbursing Office
Requirements,” which addresses many of the issues we identified. Additionally,
DASA(FO) has recently directed Army FINCOM management to provide technical
oversight, in conjunction with the 18th FMC, to the MFO Sinai deputy disbursing office.
See the Management Actions section of this finding for additional information.




                                                    14
Management Actions
The USD(C)/CFO issued a memorandum, “Determining Cash-Holding Authority,” which
addresses the problems we identified in calculating cash-holding authority amounts. The
USD(C)/CFO plans to incorporate the new requirement in the DoD FMR (see
Appendix G).

The Director, Army FINCOM reported that Army FINCOM established a new disbursing
station, DSSN 8830, at Bagram, Afghanistan, and has completed installation of DDS and
digital scanners to process transactions at all deputy disbursing offices in Afghanistan.
The Director, Army FINCOM also reported that the Army and DFAS are moving forward
on installing DDS for the disbursing operations at MFO Sinai. DDS will eliminate most
manual transaction processing and improve report preparation. The required system
changes to DDS and the “Operational Data Store” to operate in the Army central
disbursing "for-self" network are in production. The conversion from SRD-I to DDS
under DSSN 5570 central disbursing was completed at Joint Task Force Bravo in
Honduras, April 2009. Current plans call for conversion of the MFO Sinai deputy
disbursing office in the first quarter of calendar year 2010.

DASA(FO) issued the following three memorandums to correct the conditions we
identified:

   •   “Army Disbursing Office Requirements,” June 26, 2009, addresses the mistakes
       for appointing DDOs, incorrect preparation of Statements of Accountability,
       checks improperly made payable to the U.S. Treasury, improper storage of check
       stock, ineffective security programs, lack of semiannual security reviews, lack of
       quarterly cash verifications, and record retention deficiencies (see Appendix H).
   •   “Physical Security for Disbursing Offices,” June 16, 2009, addresses
       non GSA-compliant vaults and safes and deficient security and fire alarms (see
       Appendix I).
   •   “Technical Oversight of Army Finance Operations,” June 10, 2009, directs Army
       FINCOM management to provide technical oversight for the Saudi Arabia and
       MFO Sinai offices (see Appendix J).

DASA(FO) has also requested that the U.S. Army Audit Agency audit the Foreign
Currency Gain and Loss account. The U.S. Army Audit Agency announced this audit on
July 6, 2009.




                                           15
Finding B. Internal Controls at Army
Disbursing Stations in Iraq, Kuwait, and
Saudi Arabia
Statement of Accountability documents were generally accurate, and observed cash
counts agreed with cash balances reported on the Statement of Accountability. However,
some internal controls were not in place and operating effectively at Army disbursing
offices in Iraq, Kuwait, and Saudi Arabia. Specifically, we identified the following
internal control deficiencies.

    •    Disbursing offices did not have security alarms in place and operating.
    •    Disbursing officers (DOs) did not have comprehensive security programs and did
         not ensure that semiannual security reviews were performed or performed
         properly.
    •    One DO did not prepare Daily Statements of Accountability (SOA) each business
         day; the DOs did not prepare and document analysis to support their justification
         for cash-holding authority amounts; and the DOs had deficient quarterly cash
         verifications.

These conditions existed because the U.S. Army Central Command-Kuwait (ARCENT)
sustainment brigade commanders in Southwest Asia did not ensure that physical
safeguards were in place and operating effectively and the Army Financial Management
Center (FMC) did not provide adequate oversight or guidance to all of its Southwest Asia
DOs. Additionally, the DOD FMR was not clear in these areas, and DOs did not always
follow existing DOD FMR requirements. As a result, the risk of loss caused by errors,
theft, fraud, and injury were increased. In addition, because the disbursing offices held
excess cash, the cost of borrowing money increased for the U.S. Treasury. 4

Management Structure
We visited five Army disbursing stations in Iraq, Kuwait, and Saudi Arabia during May
and June of 2008: DSSN 5588, Saudi Arabia; DSSN 5579, Baghdad, Iraq; DSSN 8550,
Balad, Iraq; DSSN 8589, Tikrit, Iraq; and DSSN 8748, Camp Arifjan, Kuwait. Each
disbursing station had its own DO and staff.

Army FINCOM has three active FMCs that provide technical oversight to OCONUS
disbursing stations: Army Europe Command in Germany, Army Pacific Command/Korea
in Korea, and Army Central Command in Kuwait. We visited disbursing offices under
the Kuwait FMC (Iraq, Kuwait, and Afghanistan); the disbursing office in Saudi Arabia
did not fall under the technical oversight of any FMC because of its status as a Joint
Operations Site. FMC technical oversight includes reviewing disbursing station
4
 See Appendix K for matrix of significant internal control deficiencies that existed at deputy disbursing
offices in Southwest Asia.



                                                     16
procedures, conducting quarterly cash counts, and reviewing security plans and prior
reviews. FMC staff rotate frequently in and out of theater; they assume technical
oversight while in theater. Frequently rotated staff require consistent guidance for
successful technical oversight.

Sustainment brigade commanders, as advised by their financial management support
operations staff, exercise command and control over the Financial Management
Companies (FMCOs) assigned to them and the execution of their finance mission.
Sustainment brigade commanders are responsible for providing the necessary
infrastructure for the FMCOs, to include adequate security and communications.
Sustainment brigade commanders, in coordination with the FMC, should establish their
internal routing and controls for financial operations reporting and must establish
appropriate quality assurance and internal controls for those operations.

Army FINCOM is the authority for finance technical issues and approvals, and it
approves requests for establishment of new Army disbursing stations. Army FINCOM is
also the approval authority for any requests to DFAS for changes in finance support that
will increase DFAS billings to the Army. Army FINCOM is a Headquarters Army-level
organization distinct from the Army FMCs, which are deployable units supporting Army
component commands aligned with the joint combatant commands. The FMCs are
strictly responsible for technical oversight of DOs and DDOs.

Statement of Accountability and Cash Counts
The Daily SOAs were generally accurate. Additionally, cash counts we observed agreed
with cash balances reported on the SOAs. For example, a total U.S. dollar equivalent
balance of $10,482,902, at one disbursing office, agreed with the Daily SOA. At another
disbursing office, the U.S. Dollar equivalent balance of $250,185,867 had a minor
discrepancy of $2.92 with the Daily SOA. However, we did note the following
exceptions. (See the Daily Statements of Accountability section of this finding for
additional information and Finding C.)

Security Alarms
Disbursing offices did not have security alarms at four of the five locations we visited.
However, armed guards were on the premises at these four disbursing offices. According
to DOD FMR, volume 5, chapter 3, the DO and all other accountable individuals are
responsible for properly safeguarding all Government funds entrusted to them and are
pecuniary liable for the loss of such funds. Chapter 3 states that an intrusion detection
system is a vital part of any system designed to provide protection for a resource or other
important area. The DOD also supports general policy on the use of intrusion detection
system for resource protection purposes.

The disbursing offices did not have security alarms because ARCENT sustainment
brigade commanders in Southwest Asia did not ensure that physical safeguards, like
security alarms, were in place and operating effectively. As a result, the risk of loss due
to theft and the risk of injury to disbursing office personnel were increased. We found the


                                            17
same conditions at deputy disbursing offices in Afghanistan and Egypt. DASA(FO) has
asked that ARCENT work with appropriate sustainment brigades and financial
management companies to ensure that appropriate physical security is provided for each
disbursing office. See the Management Actions section of this finding for additional
information.

Comprehensive Security Program
Disbursing offices did not have comprehensive security programs at three of five
locations. DOD FMR, volume 5, chapter 3, states that disbursing offices must have a
security program that provides adequate protection for the maximum amount of public
funds and related documents and instruments on hand at any given time. In addition,
chapter 3 states that personnel protection must be included in the overall disbursing
security program. The installation commander is responsible for providing a security
program that adequately addresses the local risks and conditions. The security program
should be structured to consider the amount of COMA held by the DO to ensure that
adequate resources are provided to protect both the COMA and the assigned disbursing
office personnel. Without a security program, there is no assurance the installation is
aware of and able to mitigate the risks to COMA and personnel assigned to the DO.

The disbursing offices did not have adequate security programs because DOs were not
aware of the requirement for a comprehensive security program As a result, the risk of
loss from theft and the risk of injury were increased. We found the same conditions at
deputy disbursing offices in Afghanistan and Egypt. DASA(FO) issued a memorandum
reminding DOs to follow the guidelines in DOD FMR, volume 5, chapter 3, regarding the
requirement for a comprehensive security program. See the Management Actions section
of this finding for additional information.

Semiannual Security Reviews
DOs did not ensure that semiannual security reviews were performed or performed
properly at four of five locations. We determined that COMA was at risk of loss at four
sites we visited in Southwest Asia because semiannual security reviews were not being
performed, as required by the DOD FMR. One DO did not perform semiannual security
reviews properly and three did not perform the security reviews on a semiannual basis
because the DOs were not aware of the requirement for semiannual security reviews.

DOD FMR, volume 5, chapter 3, requires each disbursing office to conduct a semiannual
review of its security measures. Chapter 3 states, “The program shall include
requirements for periodic review of the adequacy of the security measures being used and
for testing security equipment for proper operation on a semiannual basis.”

DOs did not authorize or conduct semiannual security reviews because they were not
aware of the requirement for semiannual security reviews. As a result, the risk of loss due
to theft was increased. We found the same conditions at deputy disbursing offices in




                                            18
Afghanistan and Egypt. DASA(FO) issued a memorandum reminding DOs to follow the
guidelines in DOD FMR, volume 5, chapter 3, regarding the requirement for semiannual
security reviews. See the Management Actions section of this finding for additional
information.

Preparation of Daily Statements of Accountability
The DO at one of five locations did not ensure that the Daily Statement of Accountability
was prepared each day that business was transacted, as required in DOD FMR, volume 5,
chapter 19 (dated September 2007). Instead, the DO prepared it every few business days.
Army FINCOM and FMC did not review this DO’s Daily SOAs to ensure that one was
prepared each day that business was transacted.

The DO did not prepare the DD Form 2657 each day because the DO was not aware of
the requirement to do so for tracking each day’s transactions. As a result, the risk of loss
due to errors, theft, or fraud was increased. DASA(FO) issued a memorandum reminding
DOs to follow the guidelines in DOD FMR, volume 5, chapter 19, to compile the Daily
SOA at the end of each business day. See the Management Actions section of this
finding for additional information.

Cash-Holding Authority
DOs did not prepare supporting documentation to justify cash-holding authority amounts
at all five locations. Therefore, the amounts held under cash-holding authority letters
were not justified. We reviewed cash on hand at each location and compared the amount
to the average volume of transactions to determine whether sites had excessive cash on
hand. Because sites did not have a standard procedure for determining necessary cash on
hand, we could not determine whether amounts held were excessive.

Chapter 3 states that requests to hold cash at personal risk must be made in writing and
include the following: name, title, and duty station of the accountable requestor;
description of the payments and transactions requiring the use of cash; a statement that
adequate facilities are available to safeguard the cash; and a breakdown of where the cash
is held, by accountable position. The request must include the amount to be held
personally by the DO, as well as the amounts to be held by all deputies, agents, cashiers
of the DO, and other custodians of public funds. Additionally, chapter 3 states, “In
considering cash requirements for disbursing and accommodation transactions, DOs shall
consider daily cash collections of all deputies, agents, cashiers of the DO, and other
custodians of public funds over a representative period of time and average the results.”

The DOs and DDOs did not support or justify their cash-holding authority because the
DOD FMR did not have specific guidance for DOs or DDOs on how to calculate and
support their cash-holding authority. As a result, DOs may have held excessive amounts
of cash on hand, the risk of theft or fraud was increased, and the U.S. Treasury’s
borrowing costs were increased. We found the same conditions at deputy disbursing




                                             19
offices in Afghanistan and Egypt. In response to our audit, the USD(C)/CFO and the
DASA(FO) jointly prepared guidance for immediate implementation; the guidance will
be incorporated into the DOD FMR. See the Management Actions section of this finding
for additional information.

Quarterly Cash Verifications
DOs had deficient quarterly cash verifications at four of five locations. Specifically, the
four locations had one or more of the following problems:

   •   quarterly cash verifications were not performed at one of five locations,
   •   quarterly cash verifications were not performed quarterly at three of five locations,
   •   quarterly cash verifications were not conducted by individuals outside of the DO’s
       chain of command at two of five locations.

DOD FMR, volume 5, chapter 3, states:

       In all cases, the appointing commander shall require the cash verification team (or
       individual) to perform a verification of all funds held by deputies, branch office cashiers,
       disbursing agents, paying agents, collection agents, imprest fund cashiers, or change fund
       custodians at least once each quarter…. Cash verification team members shall not be in
       the DO’s chain of command.

DOs had inadequate quarterly cash verifications because they were not fully aware of
the requirement for quarterly cash verifications. As a result of the lack of quarterly cash
verifications, the risk of loss due to errors, theft, or fraud was increased. We found the
same conditions at deputy disbursing offices in Afghanistan and Egypt. DASA(FO)
issued a memorandum reminding DOs to follow the guidelines in DOD FMR, volume 5,
appendix A, for performing and documenting cash verifications. See the Management
Actions section of this finding for additional information.

Additional Observations
We met with the Director of Army FINCOM in August 2008 to present our preliminary
findings and recommendations. We noted a number of positive trends during our
fieldwork at these five disbursing stations:

   •   the DO appointments were properly executed,
   •   DOs required that checks be made to the accepting organization,
   •   vaults and safes were sufficient,
   •   LDA blank check stock was properly stored in areas meeting minimum security
       standards, and
   •   document retention requirements were met.




                                                   20
Management Actions
The Director of Army FINCOM agreed with our recommendations and promptly took
action. The USD(C)/CFO issued a memorandum, “Determining Cash Holding
Authority,” which addresses the problems we identified in calculating cash-holding
authority amounts and plan to incorporate the new requirement in the DoD FMR (see
Appendix G). The DASA(FO) issued the following three memorandums to correct the
conditions we identified:

   •   “Army Disbursing Office Requirements,” addresses the deficient daily Statements
       of Accountability, security programs, semiannual security reviews, and quarterly
       cash verifications (see Appendix H).
   •   “Physical Security for Disbursing Offices,” addresses our concerns with deficient
       security alarms in theater (see Appendix I).
   •   “Technical Oversight of Army Finance Operations,” assigns technical oversight
       over the Saudi Arabia disbursing station to Army FINCOM (see Appendix J).




                                           21
Finding C. Reconciling the DSSN 5588
Limited Depositary Account
DSSN 5588 had an unreconciled U.S. Treasury Limited Depositary Account (LDA)
difference of $2.9 million, as of April 26, 2008:

    •   SF 1219, “Statement of Accountability,” (SOA) was not reconciled to the
        SF 1149, “Statement of Designated Depositary Account,” by $2 million, and
    •   SF 1149 was not reconciled to the bank statement by $0.9 million.

The DO did not reconcile the U.S. Treasury LDA on a monthly basis as required by the
DOD FMR. In addition, during a change of command, neither the departing DO nor the
incoming DO properly performed all of the required procedures. Furthermore, the FMC
did not have technical oversight responsibility for DSSN 5588. As a result, senior Army
management officials were not aware that these irregularities existed.

DSSN 5588 Operations
The DO for DSSN 5588 operates under the U.S. Military Training Mission located
in Riyadh, Saudi Arabia. Established in 1953, the joint training mission is under
U.S. Central Command. The U.S. Military Training Mission is designed to assist the
Saudi Arabia Armed Forces with planning, organization, and training. DSSN 5588
was established in 1978 to provide financial services for training, sustainment, and
security assistance to the Saudi Arabia Armed Forces. The base commander, currently a
U.S. Air Force general, appoints the Army DO for DSSN 5588.

DSSN 5588 implemented DDS in 2006. This system was developed for tactical and
OCONUS environments to streamline disbursing operations and improve accountability
of the DO funds. DSSN 5588 uses an LDA with the Saudi American Bank to fund
operations. The funds held in the LDA are accounted for and reported on the monthly
SOA. At the end of each month, DSSN 5588 staff submits a hardcopy report of the SOA
to DFAS Rome because the DDS interface with Army Standard Finance System
(STANFINS) currently does not include the end-of-month SOA. Therefore, the DFAS
Rome accounting staff manually enters the SOA into STANFINS.

Reconciling the Limited Depositary Account
DSSN 5588 had an unreconciled U.S. Treasury LDA difference of $2.9 million.
Specifically, as of April 26, 2008, DSSN 5588’s SOA was not reconciled to the SF 1149
by $2 million, and the SF 1149 was not reconciled to the LDA bank statement by
$0.9 million.

The SF 1149, “Statement of Designated Depositary Account,” is a standard form used by
the DOs to reconcile the amount reported on the bank statement for an LDA account with
the amount reported in the DO’s checkbook. Specifically, the DO is required to complete



                                           22
lines 1-11 to obtain line 12, “Checkbook Balance Close of Period.“ The reconciliation
process begins with line 13, “Balance per Bank Statement” which is adjusted by:

   •     line 14, “Add: Deposits in Transit,”
   •     line 16, “Deduct Outstanding Checks,” and
   •     line 17, “Deduct: Deposits Not Credited By (Disbursing Officer or Cashier).”

Line 18, “Balance per Checkbook” represents the total and should equal line 12. Line 19,
“U.S. Dollar Equivalent,” represents line 12 and line 18 converted into U.S. dollars.
This amount is reported on line 6.1, “Cash on Deposit in Designated Depositary,” of the
SOA.

We determined that the LDA balance of $27.8 million that was reported on line 6.1 of the
SOA did not agree with the LDA balance of $25.8 million that was reported on line 19 of
the SF 1149 as of April 26, 2008. This resulted in a difference of $2 million. In addition,
the balance of $26.1 million, reported on line 13 of the SF 1149, did not agree with the
balance of $25.2 million that was reported on the bank statement. This resulted in a
difference of $.9 million. See the following diagram for a presentation of the
discrepancies among the documents.

                     Figure 2. Analysis of the Limited Depositary Account


                                 Limited Depositary Account Analysis

                       SF 1219                                                  Bank Statement
       Line 6.1. Cash on Deposit in Designated                     Amount reported: $25.2 million
       Depositary: $27.8 million




                                                                                          Difference:
                                                   SF 1149                                $0.9 million

       Difference:            13.   Balance per bank statement: $26.1 million
       $2 million             14.   Add: Deposits in transit
                              15.   TOTAL
                              16.   Deduct: Outstanding checks.
                              17.   Deduct: Deposits not credited
                              18.   Balance per checkbook
                              19.   U.S. dollar equivalent: $25.8 million




                                                    23
Based on the unreconciled accounts, we requested additional documents to determine the
extent of the discrepancies and the length of time that they had existed. We determined
that these LDA differences existed prior to and following the change of command for the
DO appointed on December 19, 2006. We determined that, specifically, on the date that
the departing DO transferred his responsibilities to the incoming DO, the departing DO
did not document the differences among line 6.1 of the SOA, line 19 of the SF 1149, and
the supporting bank statement.

Reconciliation Requirements and Oversight
Responsibility
The DO did not reconcile the U.S. Treasury LDA on a monthly basis as required by the
DOD FMR. In addition, the departing DO and incoming DO did not perform all of the
transfer procedures required by the DOD FMR during the change of command.
Furthermore, the FMC did not have technical oversight responsibility for DSSN 5588.

Monthly Reconciliation
DOD FMR, volume 5, chapter 14, “Limited Depositary Checking Accounts” (dated
February 2008), states that the LDA is part of the DO’s accountability and, therefore, the
DO is required to prepare an SF 1149 to reconcile any differences between the amount
that the DO has in the disbursing office checkbook and the amount reported on the bank
statement. In addition, chapter 14 states that an SF 1149 must be prepared monthly to
reconcile the DO’s LDA.

Transfer of Accountability
DOD FMR, volume 5, chapter 2, “Disbursing Offices, Officers, and Agents” (dated
December 2007), states that on the date that relief takes place, the departing and the
incoming DOs must verify cash on hand and all documents that support the SOA. In
addition, the DOs must validate any unreconciled differences (including check-issue
discrepancies, deposit discrepancies, and Intra-governmental Payment and Collection
system differences). If the departing DO cannot provide the incoming DO with
documentation supporting the unreconciled items, the departing DO processes all
unsupported items as losses or overages of funds.

DOD FMR, volume 5, chapter 14, also states that when an LDA is being closed or
transferred it requires a reconciliation. The chapter further states that the successor LDA
holder must verify that the LDA is in balance before relieving the predecessor DO.

Technical Oversight
Army FINCOM did not provide technical oversight to the DSSN 5588 through an FMC.
FMC technical oversight would have included reviewing DSSN 5588’s reconciliation
procedures for LDAs and may have prevented or detected this irregularity. However,
Army FINCOM has made progress towards correcting this lack of technical oversight.




                                             24
Specifically, DASA(FO) has directed Army FINCOM to perform technical oversight over
Saudi Arabia DSSN 5588. In addition, DASA(FO) has directed disbursing offices to
reconcile their LDAs in accordance with DOD FMR requirements. See the Management
Actions section of this finding for additional information.

Reporting Requirement for an Irregularity
Senior Army management officials were not aware that irregularities existed in
DSSN 5588’s U.S. Treasury LDA. The DOD FMR, volume 5, “Definitions” (dated May
2005), defines an irregularity as any action (or lack thereof), event, practice, or
circumstance that causes an out-of-balance condition in the financial accountability to the
U.S. of the DO, deputies, agents, or cashiers to whom public funds have been entrusted.
In addition, DOD FMR, volume 5, chapter 6, “Irregularities in Disbursing Officer
Accounts” (dated January 2004), states:

       When a DO discovers an irregularity in the disbursing account, the DO immediately shall verify
       that all transactions have been properly posted. The DO also shall verify the accuracy of all totals
       since the date of last balancing on the Daily Statement of Accountability, DD Form 2657, and each
       deputy’s, agent’s, or cashier’s Daily Agent Accountability Summary, DD Form 2665. The DO
       then shall verify by actual count that the total of all cash and documents held as cash by the DO
       and all deputies, agents, and cashiers is in agreement with the amount shown as being on hand on
       the DD Forms 2657 and 2665.

According to DOD FMR, volume 5, chapter 6, if an irregularity is not resolved within
24 hours of discovery, the DO must report it to the commander and request that the
commander direct an immediate audit of all disbursing assets by a cash verification team
to confirm the irregularity. Chapter 6 further states, “Upon receipt of information from
the DO or other individual that an irregularity has occurred, the commander shall take
action to report major losses of funds and erroneous payments due to fraud through the
chain of command to the Relief of Liability Section....”

Managers responsible for reporting disbursement account irregularities should comply
with these criteria in the DOD FMR.

Management Actions
Army FINCOM sent a financial system analyst to Saudi Arabia DSSN 5588 to resolve the
irregularities we identified. The analyst identified a number of discrepancies both in
procedures used by the disbursing station and how DDS processes various transactions
for the reconciliation of an LDA. In addition, Army FINCOM identified a number of
cash withdrawal irregularities. As a result, they have requested an Army Criminal
Investigation Command investigation. Further, Army FINCOM has confirmed that
DSSN 5588 has a potential predecessor physical loss of funds in the LDA because of
questionable cash withdrawals in the amount of $2.8 million. Army FINCOM has
reported a loss of funds of $2.8 million to DFAS Indianapolis. The remaining
irregularities were attributed to the automated (DDS) reconciliation process and were not
accountability issues.




                                                   25
DASA(FO) issued the following two memorandums to correct the conditions we
identified:

   •    “Army Disbursing Office Requirements,” which directs Army disbursing offices
       to reconcile their LDA statements with the Government accounting records each
       month, in accordance with DOD FMR requirements (see Appendix H).
   •   “Technical Oversight of Army Finance Operations,” which assigns technical
       oversight over DSSN 5588 Saudi Arabia disbursing station to Army FINCOM
       (see Appendix J).




                                         26
Finding D. Cash Amounts Used for Afghani
National Security Forces
During FY 2008, the Army used $553,272 in cash to pay for 54 trips and 485 travelers in
support of the Combined Security Transition Command-Afghanistan mission of training
and mentoring the Afghan National Security Forces. The Army used large amounts of
cash to pay for travel expenses because there was no requirement for the Army to use
Government purchase or travel cards to pay for Afghan National Security Forces
invitational travel. As a result, Army DDOs and escort officers held additional cash to
support the cash payments for the Afghan National Security Forces missions, which
increased the potential for loss, misuse, and fraud.

Combined Security Transition Command-Afghanistan
The mission of Combined Security Transition Command-Afghanistan (CSTC-A) is to
partner with the government of the Islamic Republic of Afghanistan to plan, program, and
implement structural, organizational, institutional, and management reforms of the
Afghan National Security Forces (ANSF). CSTC-A is helping ANSF to develop a stable
Afghanistan, strengthen the rule of law, and deter and defeat terrorism within
Afghanistan’s borders.

CSTC-A provides some training to ANSF outside of Afghanistan. These trips are for
security-enhancement training, database training, and a variety of conferences related to
enhancing the ANSF. ANSF training participants rank from junior sergeant to major
general. CSTC-A appoints escort officers as paying agents to assist the ANSF both
logistically and financially during travel. CSTC-A officers typically escort the ANSF to
locations such as: Okinawa, Japan; Islamabad, Pakistan; Heidelberg, Germany;
Washington, D.C.; and military facilities in Kansas and Texas. CSTC-A customarily uses
cash to fund travel outside of Afghanistan.

Use of Cash to Support the CSTC-A Mission
The Army used cash to pay for the 54 trips and 485 travelers during FY 2008.
We determined that the Army issued approximately $553,272 in cash to escort training
participants in support of the CSTC-A mission. We found a few instances in which the
Army DDO advanced more than $30,000 in cash to escort officers in support of the
CSTC-A mission.

The Federal Acquisition Regulation, subpart 13.2, “Actions at or Below the Micro-
Purchase Threshold,” states, “The Government-wide commercial purchase card shall be
the preferred method to purchase and to pay for micro-purchases.” The Federal
Acquisition Regulation defines a micro-purchase as an acquisition of supplies or services,
the aggregate amount of which does not exceed the micro-purchase threshold.




                                            27
Treasury Financial Manual, volume 1, part 4, chapter 4500, “Government Purchase
Cards,” states that small purchases of up to $25,000 should be made using a Government
purchase card. The Government purchase card: streamlines the payment process, reduces
the overall Government costs, reduces the potential for loss or theft, and improves data
collection for analysis and decision making. Other small purchase methods (imprest
funds, third-party drafts and purchase orders) may be used instead of the Government
purchase card only when they are more cost-effective, practicable, or required by statute.
The Treasury Financial Manual defines a small purchase as “an acquisition of supplies,
non-personal services, or construction in the amount of $25,000 or less.”

The Army used large amounts of cash to pay travel expenses because there was no
requirement that the Army use Government purchase or travel cards to pay for
invitational travel requirements for the ANSF. As a result, Army DDOs and escort
officers held additional cash to support the cash payments for the ANSF missions, which
increased the potential for loss, misuse, and fraud.

Conclusion
The Army’s use of cash instead of the Government purchase card may increase its costs
related to holding cash, reduces its ability to monitor purchases, and increases the
potential for significant losses associated with holding cash. Specifically, there are costs
related to obtaining, storing, protecting, disbursing, and accounting for cash. The costs
also include the time spent by disbursing office personnel handling cash. Disbursing
offices can avoid these costs by using the Government purchase card, which does not
require the holding of cash.

Management Actions
As a result of our audit, the USD(C)/CFO has taken appropriate corrective action.
Specifically, the USD(C)/CFO issued the memorandum, “Invitational Travel-Related
Expenses for Foreign Nationals, Dignitaries, and Others,” March 3, 2009, which states
that the Government purchase card is the preferred method of payment when the
infrastructure supports Government purchase card use (see Appendix L).




                                             28
Appendix A. Scope and Methodology
This is the fifth in a series of five audits that we conducted of COMA during
FYs 2007-2009. See Appendix B for the list of prior audits. We conducted this
performance audit from February 2008 through September 2009 in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives. We visited DFAS Indianapolis, and the disbursing offices listed in
Appendix D from May through June 2008. We continued to gather data, perform
analysis, and meet with key individuals through July 2009.

We reviewed the internal controls over Army COMA accounted for in Southwest Asia.
The Army General Fund reported $2.42 billion on the COMA line as of
September 30, 2008, of which $.05 billion was CONUS and $2.36 billion was
OCONUS. * We observed conditions, verified the existence of COMA as reported on the
Daily SOA, confirmed payment and collection documents to ensure sufficient internal
controls over COMA and disbursing, verified the SOA for completeness, accuracy, and
existence of disbursements, reviewed security programs for disbursing offices,
interviewed staff, analyzed documents to determine whether internal controls were
designed and operating as intended, and reviewed the disbursing office’s reconciliation of
its LDAs and foreign currency.

We judgmentally selected DOs and DDOs based on dollar amounts held at sites and
interviewed agents and cashiers as needed. We evaluated physical security procedures
through direct observation; verified COMA; and reviewed original disbursing office
records, such as:

       •   Statement of Agent Officer’s Account (SF 1081)
       •   Daily Agent Accountability Summary (DD Form 2665)
       •   Daily Statement of Accountability (DD Form 2657)
       •   Statement of Accountability (SF 1219)
       •   Treasury checks
       •   Check-issue records and reports
       •   Limited depositary account records and reports
       •   Records of deposits of negotiable instruments
       •   Deposit Tickets (SF 215) and Debit Vouchers (SF 5515)
       •   Appointments and revocations of accountable individuals
       •   Disbursement and collection vouchers, including supporting documents (invoices,
           receiving reports, purchase orders or contracts, and lodging receipts)
       •   Cash journal vouchers

*
    The $2.36 billion and the $.05 billion do not add to $2.42 billion because of rounding.



                                                       29
Further, we inquired into the uses and amounts of COMA obtained by the field sites
during the period under review. We also performed analytical procedures and a review of
the compilation process used to report the COMA balance on the Army General Fund
balance sheet.

We did not review the Army Management Control Program over disbursing offices
located in Southwest Asia because the Army was unable to provide sufficient
documentation for our review.

Use of Computer-Processed Data
For Findings A, B, and C, we used SOAs produced by both the DDS and the Standard
Finance System-Redesign Subsystem-1 (SRD-1). We used this computer-processed data
to verify various SOA line items. To assess the reliability of computer processed data we
compared various SOA line items to COMA amounts held by DOs and DDOs when we
tested existence controls over COMA. We did not find errors that would preclude the use
of computer-processed data to meet audit objectives or that would change the conclusions
in the report.




                                           30
Appendix B. Prior Coverage
During the last 5 years, the Department of Defense Inspector General (DOD IG), the U.S.
Army Audit Agency (AAA), the U.S. Air Force Audit Agency (AFAA), the Coalition
Provisional Authority (CPA), and the Special Inspector General for Iraq Reconstruction
(SIGIR) have issued 18 reports discussing Cash and Other Monetary Assets.

Unrestricted DOD IG reports can be accessed at http://www.DODig.mil/audit/reports.
Unrestricted Army reports can be accessed from .mil and gao.gov domains over
the Internet at https://www.aaa.army.mil/. Air Force Audit Agency reports can
be accessed from .mil domains over the Internet at
https://wwwd.my.af.mil/afknprod/ASPs/cop/Entry.asp?Filter=OO by those with
Common Access Cards who create user accounts. Unrestricted CPA and SIGIR
reports can be accessed at http://www.sigir.mil/reports/audit.aspx

DOD IG
DOD IG Report No. D-2009-062, “Internal Controls Over DOD Cash and Other
Monetary Assets,” March 25, 2009

DOD IG Report No. D-2009-003, “Audit of Internal Controls Over Army General Fund,
Cash and Other Monetary Assets Held Outside of the Continental United States,”
October 9, 2008

DOD IG Report No. D-2008-123, “Internal Controls Over Navy General Fund, Cash and
Other Monetary Assets Held Outside of the Continental United States,” August 26, 2008

DOD IG Report No. D-2008-121, “Internal Controls for Air Force General Fund Cash
and Other Monetary Assets,” August 18, 2008

DOD IG Report No. D-2007-028, “Controls Over Army Cash and Other Monetary
Assets,” November 24, 2006

AAA
AAA Report No. A-2006-0186-ALR: “Follow-up Audit of Disbursing Station
Expenditure Operations, DOD Disbursing Station 5570-Accounting Services, Army,”
August 22, 2006

AAA Report No. A-2005-0206-FFG, “Validation of the Statement of Accountability,
Attestation of Disbursing Station Symbol Number 8551-336th Finance Command, Camp
Arifjan, Kuwait,” June 29, 2005

AAA Report No. A-2005-0136-ALW, “Attestation Examination of Selected Army Chief
Financial Officers Strategic Plan Tasks-Fund Balance With Treasury,” March 18, 2005




                                          31
AAA Report No. A-2005-0127-ALW, “Validation of the Army's Fund Balance With
Treasury,” March 10, 2005

AAA Report No. A-2005-0104-ALW, “Disbursing Station Expenditure Operations-DOD
Disbursing Station Number 5570,” February 14, 2005

AAA Report No. A-2004-0431-AMW, “Validation of the Army's Fund Balance With
Treasury, Defense Finance and Accounting Service Columbus Center,” August 3, 2004

AFAA
AFAA Report No. F2006-0006-FD3000, “Central Command Air Forces Deployed
Locations Cash Management,” August 3, 2006

CPA
Office of the Inspector General for the Coalition Provisional Authority Report Number
04-008, “Coalition Provisional Authority Control Over Seized and Vested Assets,”
July 30, 2004

Office of the Inspector General for the Coalition Provisional Authority Report Number
04-007, “Oil for Food Cash Controls for the Office of Project Coordination in Erbil,
Iraq,” July 26, 2004

SIGIR
SIGIR Report Number 08-12, “Attestation to Development Fund for Iraq Cash in the
Possession of the Joint Area Support Group-Central,” March 13, 2008

SIGIR Reconstruction Memorandum Number 06-024, “Joint Cash Count: Iraq National
Weapons Card Program,” July 26, 2006

SIGIR Report Number 06-010, “Review of the Multi-National Security Transition
Command-Iraq Reconciliation of the Iraqi Armed Forces Seized Assets Fund,” April 28,
2006

SIGIR Report Number 06-002, “Prompt Payment Act: Analysis of Expenditures Made
From the Iraqi Relief and Reconstruction Fund,” February 3, 2006




                                           32
Appendix C. Cash and Other Monetary
Assets Background
Cash is classified as either entity cash or nonentity cash, and these are reported separately
on Federal financial statements. Entity cash is the amount of cash that the reporting entity
holds and is authorized by law to spend. Nonentity cash is collected and held by the
reporting entity on behalf of another Federal entity or the U.S. Government, and these
funds are not available for use by the reporting entity. In some circumstances, the entity
has cash in its accounts in a fiduciary capacity for the U.S. Treasury or other entities.

Laws, regulations, and agreements impose restrictions on cash deposits. Nonentity cash
is always restricted cash. Entity cash may be restricted for specific purposes. Such cash
may be in escrow or other special accounts. Financial reports should disclose the reasons
for and nature of restrictions.

Army Disbursing Officer Cash
Army DOs obtain cash by writing a U.S. Treasury check made out to themselves (or an
agent) and presenting it to a bank. DOD refers to this process as “Exchange for Cash
Check” (“Ex-checks”). DOs use cash to establish change funds and custodian imprest
funds, fund accommodation transactions, and pay for goods and services and classified
and contingency missions.


Cash Reporting to the U.S. Treasury
Each month, DOs and agencies report their accountability and transactions to the U.S.
Treasury on the following standard forms (SF):

           •   SF 1219, Statement of Accountability (SOA), and
           •   SF 1220, Statement of Transactions.

The SOA summarizes collection and disbursement activity for the month. In addition,
the SOA is used to determine the accountability of disbursing officers for funds held
outside the U.S. Treasury (known as “cash on hand”). The Statement of Transactions
shows a detailed account classification of the collections and disbursements processed in
a disbursing officer’s accounts for the current accounting period.

Cash Reporting on the Army General Fund Balance
Sheet
The Army accounting systems lack a single, standard, transaction-driven general ledger.
In addition, these systems are unable to meet all of the requirements for accrual
accounting. Therefore, DFAS Indianapolis prepares a journal voucher to record COMA
on the Army General Fund balance sheet. The journal voucher is supported by the
Army’s consolidated SOA. Without the journal voucher, the Army’s consolidated SOA
would not reconcile to the COMA reported on the Army General Fund balance sheet.


                                             33
Appendix D. Army Deputy Disbursing
Offices and Disbursing Offices Visited
DSSN                    Location of Disbursing Office
5570   Bagram Air Field, Afghanistan
       Camp Vance, Bagram, Afghanistan
       Camp Fenty, Jalalabad, Afghanistan
       Camp Eggers, Kabul, Afghanistan
       Camp Phoenix, Kabul, Afghanistan
       Kandahar Air Field, Afghanistan
       Salerno Air Field, Afghanistan
       MFO Sinai, Egypt
                        Location of Disbursing Office
5588   Riyadh, Saudi Arabia
5579   Baghdad, Iraq
8550   Balad, Iraq
8589   Tikrit, Iraq
8748   Arifjan, Kuwait




                                      34
Appendix E. Additional Disbursing Officer
Responsibilities
The DO for DSSN 5570 was recently assigned responsibility for the Military Sealift
Command DSSN 5207 and Air Force DSSN 3801.

On December 1, 2007, DSSN 5207 moved from Omaha, Nebraska, to DFAS
Indianapolis. The DO provides support to 47 pursers on Military Sealift Command ships
in the Atlantic and Pacific. Pursers manage and are accountable for day-to-day disbursing
operations on each ship. The DO and his staff are responsible for the monthly SOA and
daily input into the Centralized Disbursing System. In FY 2008, DSSN 5570 processed
33,586,696 disbursements totaling $82,277,963,858 and 172,757 collections totaling
$11,910,883,903.

In August 2008, Air Force DSSN 3801 relocated to DFAS Indianapolis. DSSN 3801
supports 303 DDOs worldwide. The customer base includes DFAS Columbus, DFAS
Limestone, 85 Air Force bases, 14 Air Reserve bases, 97 Air National Guard facilities,
Military Sealift Command, Military Surface Deployment and Distribution Command,
National Geospatial Intelligence Agency, Defense Security Service, and Uniformed
Services University of the Health Sciences. In FY 2008, DSSN 3801 processed
22,966,753 disbursements totaling $55,120,686,937 and 372,087 collections totaling
$89,286,825,985. The DO increased his workforce by 56 employees to support this
mission.




                                           35
Appendix F. Internal Control Conditions in
Afghanistan and Egypt
                           Site   Site   Site   Site   Site   Site   Site   Site   Total
                            A      B      C      D      E      F      G      H
No Security Alarm or        X      X      X      X      X      X      X      X      8
Security Alarm not
operational; No Fire
Alarms; No Armed
Guards
Deficient or Defective      X      X      X      X      X      X      X      X      8
Vaults; Inadequate Safes
Incomplete Records          X      X      X      X      X      X      X      X      8
No complete support for     X      X      X      X      X      X      X      X      8
Cash Holding Authority
Improper Appointment        X      X      X      X      X      X      X      X      8
of DDOs
Incorrectly Prepared and    X      X      X      X      X      X      X      X      7
Submitted SOAs
Incorrectly Accepted        X             X      X      X      X      X      X      7
Checks Payable to U.S.
Treasury
Improperly Stored U.S.      X                    X      X                           3
Treasury Checks or LDA
Blank Check Stock
No Comprehensive            X      X      X      X             X      X      X      7
Security Program
No Record of                X      X      X      X      X      X      X      X      8
Semiannual Security
Reviews
Deficient or Missing        X      X      X      X      X      X      X      X      8
Quarterly Cash
Verification Reviews




                                         36
Appendix G. OUSD(C)/CFO Determining
Cash Holding Authority Memorandum

                       OFFICE OF THE UNDER SECRETARY OF DEFENSE
                                       1100 DEFENSE PENTAGON
                                      WASHINGTON, DC 20301-1100


                                                                              WL 10 ZOO9
  COMPTROLLER




       MEMORANDUM FOR ASSISTANT SECRETARIES OF THE MILITARY
                       DEPARTMENTS (FINANCIAL MANAGEMENT AND
                       COMPTROLLER)
                      INSPECTOR GENERAL OF THE DEPARTMENT OF
                       DEFENSE
                      COMMANDER, U.S. ARMY CORPS OF ENGINEERS

       SUBJECT: Determining Cash Holding Authority

              In accordance with the Department of Defense Financial Management Regulation
       ("DoDFMR"), Volume 5, Chapter 3, "Keeping and Safeguarding Public Funds," cash on
       hand should be kept to the absolute minimum necessary to meet mission requirements.
       Several audits by the Department of Defense Office of Inspector General concluded that
       disbursing activities held excessive cash balances or lacked documentation to justify and
       support the cash holding authority requests. Maintaining large amounts of cash and other
       negotiable instruments increases the possibility ofloss, theft, and fraud and cost the U.S.
       taxpayers millions in unnecessary interest expenses and processing costs.

              In addition to the current "DoDFMR" guidance, your disbursing officers and their
       deputies shall use the attached Average Daily Cash Requirement templates, or similar
       worksheets, to calculate and document their request for cash holding authority. DoD
       Components shall implement management controls to ensure funds held by accountable
       officers are reviewed at least semiannually and do not exceed approved cash holding
       authority.

             This change in policy for justifying and documenting cash holding authority shall
       be implemented immediately. We will revise Volume 5 of the "DoDFMR" accordingly.
       My point of contact for this action is                 She may be reached by phone
       at                or by email at




                                                                             Officer

       Attachment:
       As stated




                                                   37
                              ...    ,....                   •
                                                                    -        <
                                                                                 -,--.
                                                                                     •                 ,       s-
                (~ ~ IhcUd t..donetgreah '"' ,,-,. ~ _ _ _ tgr'veKfl~)
• Vlllue of Monthly DisburHments in Local CuT«q (I... 3 months.....age) ' .                            •            299.420
b Vlllue of MonINy ~Iion Excnange in loeIsl Currency (1a51 3 months .oJtnge)                           •              &3,110
                                                                                                                    (lg,086 )
c V_ue of Mor'sINy Cohaiont in Loc:aI CuTency (Ia$t 3 months .verage)··
d V..ue of Monthly Reconversions Iflloc;al Currency (lall 3 monlll average)
e Value of Monlllly lOCIII Currency ChItc:b Received (Ia$t 3 monllls average)
I Average Net Monthly l ocal Currency RllQUirements (a·b-c-d+e)
                                                                                                       •              ....,
                                                                                                                     (4,830)

                                                                                                                    343.504
g Nl.Wl'lber of Buslneu OIlY' 1*    Month···                                                                              20
h Average Nl.mbef of BusIness OIIys Required to Obtain local Currency:                                                    3
I SIa\M:JConlingeflC ~ (COmmand DeIetTTllnloUon)"···                                                                 20.000
I Value of AWII'lIge CurNncy ReQuired per BusIness OIly (Ug)                                                         11.175
.. Value of Avetage CuTanc;y Reqloired based on R8JIIanistmenl (h·i)                                                 51 .52e
t V.lue of TOl8I Local Currency ~ Authority (I...)                                                                   11.526



                                     U.I 7     7   .    , . , . ,   _em-         .'
• V...... of MonINy USO Cash DIsbInements (laS! 3 monIha; .vervge)                                         •        333.041
b V.1ue of Monlhly USO reoeI'Ied from Fe Aa:ommodatlon Exchange (lasl 3 monlhs average)                    •          21,465
c V.1ue ofUSO Checb Cashed on ~tion E.lchange (last 3 monIhIlveragJ)                                       •          26.025
d Value 01 MonIhIy USC CoIIeo*Ins (last 3 monIhs """118)                                                            (21,315)
e Value 01 Monthly USC cnn disbursed on Reor:lnvertIont (1a$13 monItls average)                                      (2.100)
f Value 01 total USC checks received
g Average Net Monthly USC ReQUirements (a-+b-+c-O-e-ij
                                                                                                                    "'"""
                                                                                                                    313.g12
h Number of Business Days pel" Monlll··
I A....... Number of Bu....... 0.1'$ Required to USO:                                                                      ,
                                                                                                                          20

J StaliclContingency Requirements (Convnand Detetmn.tion)- -                                                         30.000
k Velue of Aveo-age USC Required per au..... Oa~ (gIh)                                                               15.896
t Value of Average USC Required based on Replenishmenl (."1)                                                         18.418




                                                                    -
m Value of Total USOCIshHo!di          A               -+1                                                          108478



    ·lDAl ll'lould genetlIlly be ....intained willi a checkbook bal.nce as elOM to zero as possible. ThIs is done by
    Iorec.sting ~ymenl ,.qui........... in sul!icient lime to order....-rency 10 COOTe$pOI"\CI willi payment due date .
    •• • h;ghet cash holding 8UII'Iority wiI be required if ooIecIions exceed ~ (Le_ periodic IlU"den ~ fund
    deposiI$) . General)' It It noc c:osI effective 10 reoor'IIIeI1 ....-rency wN<;h wiI be ~ed for disbursements in lie nHf
    ......
    ••• when recuning ....rillnot in demand OCCUr$ due to ",ems such as paydlY'.' separale cash l'IoIding .uItIorIly should
    be computed fer Ihese petIodl Ind exeluded from l'IOITI'Ial non-peak caiculalkln •

    •••• contingency requirements ;ener811y reI\eeI emtfgeOCy cash needs IOf opeIlIlional missions Of due 10 large
    lIuctuatiotls in demand which cannot be forecaSI in advance. Static requlremen18 re1\ect subordinate agenl5. lmprest
    funds. Of contracI\.IiIII.lf1IngemenIs auch as debil card pool accounts or oomml.Wlity baNI contingency caUl. Agent
          emencs should be v.lid.ted basad on             .nd fr        01 retu




                                                                        38
39
Appendix H. Army Disbursing Office
Requirements Memorandum

                                   DEPARTMENT OF THE ARMY
                             OFFICE OF THE ASSISTANT SECRETARY OF THE ARMY
                                FINANCIAL MANAGEMENT AND COMPTROLLER
                                          109 ARMY PENTAGON
                                       WASHINGTON DC 20310-0109
           ~EPLVTO
           "TTENTION OF
                                             JUN 26 tw.l

    MEMORANDUM FOR SEE DISTRIBUTION

    SUBJECT: Army Disbursing Office Requirements


    1. Recent audit findings indicate that Army disbursing operations are not in conformance
   with all requirements in the DoD Financial Management Regulation (DoDFMR) Volume 5,
   Disbursing Policy and Procedures (DoD 7000.14-R). Of particular concern are those
   discrepancies that have exposed the Army to fraud and the potential for losses through
   theft or error. Commands with subordinate activities performing disbursing operations
   should ensure that these operations are included in their management control programs
   and adequate resources are allocated to maintain the security and integrity of those
   operations. Due to the sensitivity of disbursing functions , regular reviews should be
   conducted to ensure compliance wit h existing security and processing requirements.

    2. While the specific deficiencies noted in both external audits and internal reviews vary
    by location across the Army, the satisfactory implementation of the following
    requirements should be verified at all Army disbursing operalions. Specific delailed
    requirements are contained in the DoDFMR Volume 5 at
    http://www.defenselink.mil/comptroller/fmr/.

       a. Ensure physical security through vaults, safes, and alarms meeting Ihe minimum
    specifications outlined in DoDFMR Volume 5, chapter 3.

       b. Develop and maintain of a security plan.

       c. Conduct semi-annual security inspections.

      d. Establish and approve cash holding authority for cash and local bank account
   balances commensurate with need, based on the actual usage and availability of
   resupply.

       e. Conduct quarterly independent unannounced cash verifications encompassing all
   assets maintained by the disbursing office, to include blank check stock, in accordance
   with DoDFMR Volume 5, appendix A.

      f. Conduct reg ular reviews of disbursing and entitlement systems access profiles to
   ensure appropriate separation of duties and delete users andlor access when no longer
   required.

      g. Monthly reconcile local depository bank account statements with government
   accountability reco rds .




                                                   40
                            disbursing office records of deposits and debit vouchers with


                   blank check sl:Jck and slorad value cards as cash inSlrumGols,

                                                                                 lor each




                              ,,,,,::mli,,,,   required nS!3S(;l!o'ns reviews, and


     Use electronic payment mec!lanisms in lieu of cash or local bank checks
whenever l"r;I:)!l)1",

       Use                 Treasury Services               lieu of local banks     loreigr: currency
    i1ternatlonal payments whenever feasible.

   O.   Reconcile local          payroll payments to collections in the centrallzee] military
        systems.

                      't:"ulIat<tU   checks and             value card transactions to the Federal


        Ensure checks accepted           accomrno(jation exchange are mazie payable            the
                            rather than a            "U,S, Treasury,"




                                                   MM
                                     Depllty As's!Stailt'Se~tary of the
                                             (Financial Operations)




                                                      41
Appendix I. Physical Security for Disbursing
Offices Memorandum

                                             DEPARTf.!ENT OF THE ARMY


                                                   WASHINGTON DC ?/YIJO•• OllH.

                                                              JUN 16        m
     tv1B,,10RANDUt.~ FOR

     COMMANDER, U S. ARI.AY CENTRAL COMMAND, }\TTN'      APO AE                              ca.
     DIRECTOR. • Elth FINANCI.AL MANAGEMENT CENTER. APO AE 09366

     SUBJECT                 Secunty for Disbursing Offices


                                                            ,~c"'lif",tI   r'umeroL.S deficiencies
     of                                                                                 A copy oj
                             ar.,dit was   r,"""}i,<jc,rl                   t;;i.,~,,,,i~1   Managernerl Center




                      permanent secure slru:::tures
     safes,               naure currenl .~..,,,,,,,tic',,,
     50iU1io"6 than currently t:eing

     3, Across the theater there                        alar,115 for securing disbursing vaults. In Iraq,
     o'frces used armed gLarcis.                                                                   some locations
     had          alarrr,s nor guare51'L                                    had           meetmg GSA          ard
     secunty standards as                                                     Afghanistan. the Qlliees had safes
          secure                                 1'1981            standards. In some cases. combl1'alion
     locks had tree.1 dri'led         or tapoo O'Jer to avoid use. In             11 I locations there Vv/:lS
     wnllen                 nor ".....ere :;emi-2nr,ual security                        conducted     ilccordance
     With lhe             VO!uPle 5.

                                   Ira: safes have bee'l               ordered           Afghanistan ilnd 111 some cases are
     in                               any Cccumentalicr o~l security                                  Include
     rnspeclior resu.ts.        oroeure.11ent actions 10 the U,S. Army
     be reqUired    elrise antlcipatec! GlLd,1

     5. My PQi'lt     contact




                                                                     42
Appendix J. Technical Oversight of Army
Finance Operations Memorandum

                                 DEPARTMENT Of THE ARMY
                           OFFICE OF THE ASSISTANT SECRETARV OF THE ARM"
                              FINANCIAl. hlANAGEhiE/IIT AND COMPTROLLER
                                          109 ARMV PENTAGON
                                      WASHINGTON DC 2031MHlll


                                           Jill 10 2009

    MEMORANDUM FOR

    COMMANDER, U.S. MILITARY TRAINING MISSION TO SAUDI ARABIA, UNIT61300
     BOX 2, APO AE 09803·1300
    COMMANDER, U.S. ARMY SOUTHERN COMMAND, 2450 STANLEY ROAD
              FORT SAM HOUSTON. TEXAS, 78234·7517
                 U.S. ARMY CENTRAL COMMAND, 1881 HARDEE AVE SW. FORT
     MCPHERSON, GEORGIA 30330

    SUBJECT: TechniCal Oversight of Army Finance Operations


    ,. I am directing the U.S. Army Finance Command (USAFINCOM) to provide technical
               and assistance to Ihose active finance operations not under a higher
    command with an active Financial Management Center (fMC). Your offices in Saudi
    Arabia, Honduras, and the Sinai currenlly fali into this area. As a minimum, I expect the
    USAflNCOM to conduct an annual staff assistanca visit to help train the staff; ensure
    the Office is using the most current versions of finance systems; and validate thai
    appropriate internal conlrols and regulatory compliance is in place.

    2. With the            of the      FMC being theater committeel to the Army Central
    Command and             FMC being theater committed to the Army Southern
    Command, anticipate that the USAFINCOM will partner with these FMCs on this
    requirement. Additionally. this requirement is being incorporated into an upcoming flO>'
    write of AR 11·37. Army Finance and Accounting Quality Assurance Program.

    3. My point of conlact is • • • • • • • • • • • • • • • • • • •




                                       Deputy 'Aasl6I.~


    Cf.
    Commander. U,S. Army Finance Command
    Director,       Finance and Accounting Service
                   Financial Management Command (Provisional)
                Financial Management Center




                                                  43
Appendix K. Internal Control Conditions in
Iraq, Kuwait, and Saudi Arabia
                                                               FINCOM       FINCOM
                    Site I   Site   Site K   Site L   Site M   (Site J to    & Site I
                              J                                   M)          Total
                                                                 Total
No Security           X       X       X        X                   3            4
Alarms in Place
and Operating
No Written            X               X                 X          2            3
Security Plans
No Record of          X               X        X        X          3            4
Semi-Annual
Security Reviews
Statement of                          X                            1            1
Accountability
(SOA) Not
Prepared Properly
No Support for        X       X       X        X        X          4            5
Cash Holding
Authority
Deficient or          X       X       X        X                   3            4
Missing Quarterly
Cash Verification
Reviews
Approved Vaults                                                    0            0
and Safes
DO Appointments                                                    0            0
Checks Payable to                                                  0            0
U.S. Treasury
Storage of U.S.                                                    0            0
Treasury or LDA
checks




                                       44
Appendix L. Invitational Travel-Related
Expenses Memorandum

                       OFFICE OF THE UNDER SECRETARY OF DEFENSE
                                       1100 DEFENSE PENTAGON
                                      WASHINGTON, DC 20301-1100
                                                                                      MAR 0 3 2009


   COMPTROLLER

      MEMORANDUM FOR DEPUTY ASSISTANT SECRETARY OF THE ARMY
                       (FINANCIAL OPERATIONS)

      SUBJECT: Invitational Travel-Related Expenses for Foreign Nationals, Dignitaries,
               and Others

             A recent audit by the Department of Defense Inspector General identified
      instances where cash was used to pay for over $550,000 worth of invitational travel-
      related expenses for foreign nationals, dignitaries, and others when a government card
      should have been used to pay for the travel-related expenses. In accordance with the
      Department of Defense Financial Management Regulation, Volume 5, Chapter 11,
      "Disbursements," cash should only be used when no other payment alternative is feasible.

             To reduce the cash requirements for disbursing officers, use a government card to
      pay for transportation and lodging ex.penses when the mission and infrastructure supports
      such usage. Using a government card: (1) streamlines the payment process; (2) reduces
      the overall government costs (e.g., interest costs on borrowed funds); (3) reduces the
      potential for loss or theft; and (4) improves data collection for analysis and decision-
      making.

             Also, authorizing officials should ensure
            of contact for this action is




                                                   Acting Deputy Chief Financial Officer




                                                45
Glossary
Deputy Disbursing Officer (DDO). An individual appointed by the DO to act in the
name of that DO to perform any and all acts relating to the receipt, disbursement, custody,
and accounting for public funds. The DO who makes the appointment may restrict the
acts a deputy is authorized to perform. All DDO appointees must be U.S. citizens.

Disbursing Agent. An agent to the DO that has not been appointed as a DDO.
Generally, a disbursing agent operates a permanently located disbursing office of
considerable size that is geographically separated from the disbursing officer’s office;
however, the use of disbursing agents is not restricted to geographic separation from the
DO.

Disbursing Office. An activity or the organizational unit of an activity whose principal
function consists of the disbursement, collection and reporting of public funds. The term
“disbursing office” includes both tactical and nontactical disbursing activities. Each
disbursing office will have a DO and should have at least one DDO position, which is
under the direct cognizance and control of the DO.

Disbursing Officer (DO). A military member or a civilian employee of a DOD
Component designated to disburse monies and render accounts according to laws and
regulations governing the disbursement of public monies. All DO appointees must be
U. S. citizens.

Limited Depositary Account (LDA). A checking account in a foreign currency
maintained in a limited depositary by a disbursing officer in his or her name. Limited
depositary accounts also may be referred to as operating accounts.




                                            46
